                     Report on Examination of Direct and
                   Indirect Costs and Rates for Fiscal Year
                            Ended March 31, 2000

                               December 2003

                     Reference Number: 2004-1C-021




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           December 5, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Examination of Direct and Indirect Costs and Rates for
                              Fiscal Year Ended March 31, 2000 (Audit #20041C0212)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       December 6, 2001, certified final indirect cost rate proposal and related books and
       records for reimbursement of Fiscal Year (FY) 2000 incurred costs. The purpose of the
       examination was to determine the allowability and allocability of direct costs and indirect
       cost rates and to establish audit-determined indirect cost rates for April 1, 1999, through
       March 31, 2000. The proposed rates apply primarily to flexibly priced contracts.
       The DCAA questioned costs of approximately $10.3 million in the contractor’s claimed
       labor overhead and general and administrative (G&A) expenses. The questioned costs
       include approximately $7.8 million in claimed executive compensation costs for the
       contractor’s FY 2000. The DCAA indicated that the questioned costs resulted from a
       comparison of executives’ compensation to comparable executive positions published in
       executive market pay surveys. The DCAA questioned the executive compensation
       costs based on application of the reasonableness criteria of the Federal Acquisition
       Regulation Part 31. The questioned costs also include $1.8 million in claimed corporate
       residual G&A cost. This questioned cost is a result of the DCAA’s reconciliation of
       claimed corporate allocations to the contractor’s FY 2000 corporate audit report.
       Additionally, the DCAA applied an upward adjustment to the claimed G&A base. The
       contractor concurred with all the questioned/upward-adjusted cost except for the
       approximately $7.8 million in executive compensation and its effect on allowable
       overhead allocations to the G&A pool.
                                            2




The DCAA opined that the contractor’s proposed indirect rates, subject to the
qualifications discussed below, are not acceptable as proposed. However, claimed
direct costs, subject to the qualifications discussed below, are provisionally approved
pending final acceptance.
The DCAA qualified its audit report because results of the assist audits for the
subcontract costs had not been received. The results of the assist audits may disclose
additional questioned costs. Also, the DCAA indicated that the contractor’s home office
has been cited as being in noncompliance with Cost Accounting Standard 405 for failing
to identify and exclude expressly unallowable costs from its incurred cost submission. A
final determination on this noncompliance may lead to additional questioned costs.
Additionally, the DCAA stated that subsequent audits or reviews on insurance, pension,
and other fringe benefits may supplement the findings in this report.
Although this DCAA report is dated March 29, 2002, we did not receive a copy of the
report until November 2003. Neither the Internal Revenue Service (IRS) nor the
Treasury Inspector General for Tax Administration (TIGTA) are shown on the DCAA
report distribution list, even though IRS-administered contracts were included in the
scope of the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
